No. 19-1054

In the Supreme Court of the United States
__________________
CHRISTA PIKE,
v.
GLORIA GROSS,
__________________

Petitioner,

Respondent.

On Petition for Writ of Certiorari to the United States
Court of Appeals for the Sixth Circuit
__________________
RESPONDENT’S BRIEF IN OPPOSITION
__________________
HERBERT H. SLATERY III
Attorney General and Reporter
State of Tennessee
ANDRÉE SOPHIA BLUMSTEIN
Solicitor General
RICHARD D. DOUGLAS
Assistant Attorney General
Counsel of Record
301 6th Avenue North
P.O. Box 20207
Nashville, Tennessee 37202
(615) 741-4125
Davey.Douglas@ag.tn.gov
Counsel for Respondent
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
CAPITAL CASE
RESTATEMENT OF THE
QUESTIONS PRESENTED
I. Whether the Sixth Circuit correctly determined
that the state court reasonably applied Strickland v.
Washington, 466 U.S. 668 (1984), when concluding that
Pike failed to prove that trial counsel was ineffective
during the sentencing phase of her capital trial.
II. Whether this Court should consider Pike’s
previously-unasserted claim that the Eighth and
Fourteenth Amendments prohibit capital punishment
for an offender who was eighteen years of age at the
time of the offense.

ii
RULE 15.2 STATEMENT OF
PROCEDURAL HISTORY
Pike v. Tennessee, No. 98-8226, 526 U.S. 1147 (June
1, 1999) (denying certiorari in direct appeal)
Pike v. Tennessee, No. 11-9152, 568 U.S. 827 (Oct. 1,
2012) (denying certiorari in post-conviction appeal)
Pike v. Gross, 936 F.3d 372 (6th Cir. 2019) (appeal
from denial of petition for writ of federal habeas
corpus)

iii
TABLE OF CONTENTS
RESTATEMENT OF THE QUESTIONS
PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
RULE 15.2 STATEMENT OF PROCEDURAL
HISTORY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . iv
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTIONAL STATEMENT . . . . . . . . . . . . . . 2
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 6
A. State Court Proceedings . . . . . . . . . . . . . . . . . 6
B. Federal Court Proceedings . . . . . . . . . . . . . . 13
REASONS FOR DENYING THE WRIT . . . . . . . . . 17
I.

Pike Attempts to Manufacture a Circuit Split
Where None Exists . . . . . . . . . . . . . . . . . . . . 17

II.

Pike Has Not Shown That Trial Counsel’s
Failure to Present Additional Mitigation
Evidence Caused Her Prejudice . . . . . . . . . . 22

III.

This Court Should Decline to Review Pike’s
Claim That the Death Penalty Should Not Be
Imposed On a Defendant Who Was Eighteen
Years Old at the Time of the Criminal
Offense . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

iv
TABLE OF AUTHORITIES
CASES
Abdul-Salaam v. Sec’y of Penn. Dept. of Corr.,
895 F.3d 254 (3d Cir. 2018) . . . . . . . . . . . . . . . . 19
Anderson v. Kelley,
938 F.3d 949 (8th Cir. 2019). . . . . . . . . . . . . . . . 19
Atkins v. Virginia,
536 U.S. 304 (2002). . . . . . . . . . . . . . . . . . . . 10, 27
Ayestas v. Davis,
138 S. Ct. 1080 (2018). . . . . . . . . . . . . . . . . . . . . 25
Barefoot v. Estelle,
463 U.S. 880 (2000). . . . . . . . . . . . . . . . . . . . . . . 26
Broom v. Mitchell,
441 F.3d 392 (6th Cir. 2006). . . . . . . . . . . . . 14, 15
Busby v. Davis,
925 F.3d 699 (5th Cir. 2019). . . . . . . . . . . . . . . . 18
Foust v. Houk,
655 F.3d 524 (6th Cir. 2011). . . . . . . . . . . . . . . . 21
Goad v. State,
938 S.W.2d 363 (Tenn. 1996) . . . . . . . . . . . . . . . 11
Gonzalez v. Thaler,
565 U.S. 134 (2012). . . . . . . . . . . . . . . . . . . . . . . 25
Goodwin v. Johnson,
632 F.3d 301 (6th Cir. 2011). . . . . . . . . . . . . . . . 21
Greene v. Fisher,
565 U.S. 34 (2011). . . . . . . . . . . . . . . . . . . . . . . . 26

v
Griffin v. Pierce,
622 F.3d 831 (7th Cir. 2010). . . . . . . . . . . . . . . . 20
Harrington v. Richter,
562 U.S. 86 (2011). . . . . . . . . . . . . . . . . . . . . . . . 23
Holsey v. Warden, Georgia Diagnostic Prison,
694 F.3d 1230 (11th Cir. 2012). . . . . . . . . . . . . . 19
Kayer v. Ryan,
923 F.3d 692 (9th Cir. 2019). . . . . . . . . . . . . . . . 20
Lopez v. Smith,
135 S. Ct. 1 (2014). . . . . . . . . . . . . . . . . . . . . . . . 26
Miller-El v. Cockrell,
537 U.S. 322 (2003). . . . . . . . . . . . . . . . . . . . . . . 25
Morales v. Mitchell,
507 F.3d 916 (6th Cir. 2007). . . . . . . . . . . . . . . . 21
Parker v. Matthews,
567 U.S. 37 (2012). . . . . . . . . . . . . . . . . . . . . . . . 26
Porter v. McCollum,
558 U.S. 30 (2009). . . . . . . . . . . . . . . . . . . . . . . . 20
Pruitt v. Neal,
788 F.3d 248 (7th Cir. 2015). . . . . . . . . . . . . . . . 20
Roper v. Simmons,
543 U.S. 551 (2005). . . . . . . . . . . . . . . . . . . passim
Slack v. McDaniel,
529 U.S. 473 (2000). . . . . . . . . . . . . . . . . . . . . . . 26
Strickland v. Washington,
466 U.S. 668 (1984). . . . . . . . . . . . . . . . . . . passim

vi
Tanzi v. Sec’y, Florida Dept. of Corr.,
772 F.3d 644 (11th Cir. 2014). . . . . . . . . . . . . . . 19
Williams v. Taylor,
529 U.S. 362 (2000). . . . . . . . . . . . . . . . . 18, 20, 23
Wong v. Belmontes,
558 U.S. 15 (2009). . . . . . . . . . . . . . . . . . . . . . . . 18
Yarborough v. Alvarado,
541 U.S. 652 (2004). . . . . . . . . . . . . . . . . . . . . . . 23
CONSTITUTION AND STATUTES
U.S. Const. amend VI. . . . . . . . . . . . . . . . . . . . . . . . . 5
U.S. Const. amend VIII . . . . . . . . . . . . . . . . . . . . . . . 5
U.S. Const. amend XIV . . . . . . . . . . . . . . . . . . . . . . . 6
28 U.S.C. § 1254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 2241 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
28 U.S.C. § 2253 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
28 U.S.C. § 2253(c)(1). . . . . . . . . . . . . . . . . . . . . . . . 25
28 U.S.C. § 2253(c)(1)(A) . . . . . . . . . . . . . . . . . . . . . 25
28 U.S.C. § 2253(c)(2). . . . . . . . . . . . . . . . . . . . . . . . 26
28 U.S.C. § 2254 . . . . . . . . . . . . . . . . . . . . . . . . . . . 4, 5
28 U.S.C. § 2254(d). . . . . . . . . . . . . . . . . . . . . . . 17, 23
28 U.S.C. § 2254(d)(1) . . . . . . . . . . . . . . . . . . . . . . . 26
Tenn. Code Ann. § 39-13-204(i)(5) . . . . . . . . . . . 10, 16
Tenn. Code Ann. § 39-13-204(i)(6) . . . . . . . . . . . 10, 16

1
OPINIONS BELOW
The order of the United States Court of Appeals for
the Sixth Circuit denying Pike’s petition for rehearing
en banc is not reported. See Pet. App. F at 257a. The
opinion of the Sixth Circuit affirming the denial of
habeas relief is published. Pike v. Gross, 936 F.3d 372
(6th Cir. 2019); Pet. App. A. The memorandum opinion
of the United States District Court for the Eastern
District of Tennessee denying habeas relief is not
reported. Pike v. Freeman, No. 1:12-cv-35, 2016 WL
1050717 (E.D. Tenn. Mar. 11, 2016); Pet. App. B at 28a.
The order of the Tennessee Supreme Court denying
Pike’s application for permission to appeal the denial of
post-conviction relief is not reported. See Pet. App. C.
at 107a. The opinion of the Tennessee Court of
Criminal Appeals affirming the denial of postconviction relief is not reported. Pike v. State, No.
E2009-00016-CCA-R3-PD, 2011 WL 1544207 (Tenn.
Crim. App. Apr. 25, 2011); Pet. App. D at 108a.
The opinion of the Tennessee Supreme Court
remanding Pike’s case to the trial court with
instructions to reinstate her petition for post-conviction
relief is published. Pike v. State, 164 S.W.3d 257
(Tenn. 2005). The opinion of the Tennessee Court of
Criminal Appeals denying Pike’s motion to reinstate
her petition for post-conviction relief is not reported.
Pike v. State, No. E2002-00766-CCA-R3-PD, 2004 WL
1580503 (Tenn. Crim. App. July 15, 2004).
The opinion of the Tennessee Supreme Court
affirming Pike’s conviction and sentence is reported.
State v. Pike, 978 S.W.2d 904 (Tenn. 1998). The

2
opinion of the Tennessee Court of Criminal Appeals
affirming Pike’s conviction and sentence is not
reported. State v. Pike, No. 03C01-9611-CR-00408
(Tenn. Crim. App. Nov. 26, 1997).
JURISDICTIONAL STATEMENT
The Sixth Circuit affirmed the denial of habeas
relief on August 22, 2019. Pike v. Gross, 936 F.3d 372
(6th Cir. 2019); Pet. App. A at 1a. The court denied
Pike’s petition for rehearing en banc on September 26,
2019. Pet. App. F at 257a. On December 17, 2019,
Justice Sotomayor extended the time for filing a
petition for writ of certiorari until February 24, 2020.
Pike filed her petition on February 21, 2020. She
invokes this Court’s jurisdiction under 28 U.S.C.
§ 1254(1). Pet. 1.
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
28 U.S.C. § 1254 provides:
Final judgments or decrees rendered by the
highest court of a State in which a decision could
be had, may be reviewed by the Supreme Court
by writ of certiorari where the validity of a
treaty or statute of the United States is drawn
in question or where the validity of a statute of
any State is drawn in question on the ground of
its being repugnant to the Constitution, treaties,
or laws of the United States, or where any title,
right, privilege, or immunity is specially set up
or claimed under the Constitution or the treaties
or statutes of, or any commission held or
authority exercised under, the United States.

3
28 U.S.C. § 2241 provides in relevant part:
(a) Writs of habeas corpus may be granted by the
Supreme Court, any justice thereof, the district
courts and any circuit judge within their
respective jurisdictions. The order of a circuit
judge shall be entered in the records of the
district court of the district wherein the
restraint complained of is had.
....
(c) The writ of habeas corpus shall not extend to
a prisoner unless—
....
(3) He is in custody in violation of the
Constitution or laws or treaties of the United
States.
28 U.S.C. § 2253 provides in relevant part:
(c)(1) Unless a circuit justice or judge issues a
certificate of appealability, an appeal may not be
taken to the court of appeals from—
(A) the final order in a habeas corpus
proceeding in which the detention
complained of arises out of process issued by
a State court; or
...
(2) A certificate of appealability may issue under
paragraph (1) only if the applicant has made a
substantial showing of the denial of a
constitutional right.

4
28 U.S.C. § 2254 provides in relevant part:
(a) The Supreme Court, a Justice thereof, a
circuit judge, or a district court shall entertain
an application for a writ of habeas corpus in
behalf of a person in custody pursuant to the
judgment of a State court only on the ground
that he is in custody in violation of the
Constitution or laws or treaties of the United
States.
(b)(1) An application for a writ of habeas corpus
on behalf of a person in custody pursuant to the
judgment of a State court shall not be granted
unless it appears that—
(A) the applicant has exhausted the remedies
available in the courts of the State; or
(B)(i) there is an absence of available State
corrective process; or
(ii) circumstances exist that render such
process ineffective to protect the rights of the
applicant.
(2) An application for a writ of habeas corpus
may be denied on the merits, notwithstanding
the failure of the applicant to exhaust the
remedies available in the courts of the State.
(3) A State shall not be deemed to have waived
the exhaustion requirement or be estopped from
reliance upon the requirement unless the State,
through counsel, expressly waives the
requirement.

5
(c) An applicant shall not be deemed to have
exhausted the remedies available in the courts
of the State, within the meaning of this section,
if he has the right under the law of the State to
raise, by any available procedure, the question
presented.
(d) An application for a writ of habeas corpus on
behalf of a person in custody pursuant to the
judgment of a State court shall not be granted
with respect to any claim that was adjudicated
on the merits in State court proceedings unless
the adjudication of the claim—
(1) resulted in a decision that was contrary
to, or involved an unreasonable application
of, clearly established Federal law, as
determined by the Supreme Court of the
United States; or
(2) resulted in a decision that was based on
an unreasonable determination of the facts in
light of the evidence presented in the State
court proceeding.
U.S. Const. amend VI provides in relevant part:
In all criminal prosecutions, the accused shall
enjoy the right . . . to have the Assistance of
Counsel for his defence.
U.S. Const. amend VIII provides:
Excessive bail shall not be required, nor
excessive fines imposed, nor cruel and unusual
punishments inflicted.

6
U.S. Const. amend XIV provides in relevant part:
. . . nor shall any State deprive any person of
life, liberty, or property, without due process of
law . . . .
STATEMENT OF THE CASE
A. State Court Proceedings
On the night of January 12, 1995, Pike brutally
murdered the victim, Colleen Slemmer. Pike, 978
S.W.2d at 907-911. The proof at trial showed that
Pike, armed with a box cutter and a miniature meat
cleaver, lured the victim to a remote area. Id. at 909.
She threw the victim to the ground, punched and
kicked her, slammed her head against the concrete,
repeatedly slashed and stabbed her, and smashed her
head with a rock—all while the victim was alive and
pleading for her life. Id. at 909-10. Pike boasted about
the killing to some of her classmates later that night
and the next morning, and she showed classmates a
piece of the victim’s skull that she had kept as a
souvenir. Id. at 908.
Pike told police that, during the attack on the
victim, Pike heard voices in her head telling her that
she had do something to prevent the victim from telling
on her and sending her to prison for attempted murder.
Id. at 909. Pike also told police that as the victim
begged for her life, Pike responded that she was not
going to be “rotting in jail because of [the victim’s]
stupid ass.” Id. at 918.
The person who discovered the victim’s body said
that the victim was so badly beaten that he initially

7
mistook the victim for the corpse of an animal. Id. The
medical examiner determined that the victim’s cause of
death was blunt force injuries to the head and that the
victim was likely alive and conscious when her injuries
were inflicted. Id. at 911.
Clinical psychologist Dr. Eric Engum and forensic
psychologist Dr. William Bernet testified for the
defense during the guilt phase of trial. Id. at 912. Dr.
Engum diagnosed Pike with severe borderline
personality disorder and concluded that she had not
acted with premeditation or deliberation in killing the
victim. Id. Instead, she had acted in a manner
consistent with the diagnosis of borderline personality
disorder and had simply lost control. Id. Dr. Bernet
indicated that the victim’s murder was consistent with
collective aggression, a phenomenon in which a group
of people gather and become emotionally aroused,
ultimately engaging in some kind of violent behavior.
Id.
The jury convicted Pike of first-degree
premeditated murder and conspiracy to commit firstdegree murder, and the trial proceeded to the
sentencing phase. Id. at 912-13.
Prior to trial, trial counsel retained Dr. Dianna
McCoy as a mitigation specialist. Pike, 2011 WL
1544207, at *32. Dr. McCoy prepared a social history
of Pike, and trial counsel originally planned to call her
to testify about Pike’s social history and difficult
upbringing. Id. at *33. However, trial counsel became
uneasy about using Dr. McCoy and her report, and
counsel ultimately decided to call Pike’s aunt, father,
and mother as mitigation witnesses. Id. All three

8
testified about Pike’s challenging childhood and
behavioral issues. Pike, 978 S.W.2d at 913.
Carrie Ross, Pike’s aunt, testified that Pike was
born prematurely and had not experienced any
maternal bonding. Id. Ross said that Pike’s family had
a history of substance abuse. Id. Pike’s maternal
grandmother was an alcoholic who verbally abused her.
Id. Ross testified that Pike was primarily raised by her
paternal grandmother until her death in 1988. Id. The
two were inseparable until that time. Id. After her
grandmother died, Pike was shuffled between her
mother and father. Id.
Ross described Pike’s childhood home as constantly
filthy, and she said that Pike’s mother, Carissa
Hansen, frequently failed to provide Pike with
adequate food or clothing. Pike, 936 F.3d at 380.
Hansen also failed to set any rules for Pike or impose
any disciplinary measures. Pike, 978 S.W.3d at 978.
Ross testified that Hansen did not play an active role
in raising Pike because Hansen was either working or
“out partying.” Pike, 936 F.3d at 380. Ross recalled an
incident where she and Hansen were at a bar when
they received a phone call that Pike was having
seizures. Id. at 380. While Ross wanted to return
home to care for Pike, Hansen was unconcerned and
wished to remain at the bar. Id. Hansen only left at
Ross’s insistence. Id. Ross said that whenever Hansen
had to choose between herself and Pike, Hansen always
put her own interests first. Id. at 381.
Pike’s father, Glenn Pike, admitted that he rejected
Pike on multiple occasions during her childhood. Id. at
380. He said that he sided with his new wife and other

9
children when a particular conflict arose between them
and Pike, sending Pike away from his house. Id. On a
second occasion, he kicked Pike out of the house
because she was doing poorly in school. Id. Shortly
before Pike’s eighteenth birthday, Glenn rejected Pike
a third time and signed adoption papers allowing for
Pike to be adopted. Id.
Pike’s mother, Hansen, testified that Pike spent
most of her childhood with her paternal grandmother
because Hansen and Glenn were frequently not at
home. Id. Hansen said that while she was married to
Glenn, Pike and Glenn did not have “much of a
relationship.” Id. Hansen also indicated that Pike
spent much of her time with her paternal grandmother
because Hansen was drinking heavily and abusing
drugs. Id. Hansen admitted to smoking marijuana
with Pike when Pike was in her teens. Id. Hansen
said that Pike was “devastated” when her paternal
grandmother died and that she attempted suicide. Id.
Despite the suicide attempt, Hansen did not attempt to
get regular psychological or psychiatric help for Pike.
Id.
Hansen testified that, after she married Danny
Thompson, Thompson said that she had to choose
between him and Pike. Id. at 108. Hansen knew that
Thompson and Pike did not get along and that
Thompson was abusive to Pike. Id. But Hansen chose
Thompson. Id. Hansen also testified that one of her
later boyfriends whipped Pike with a belt. Pike, 978
S.W.3d at 913. Hansen admitted that Pike led a
troubled life, but she said that Pike’s issues were

10
Hansen’s fault and that she blamed herself for Pike’s
behavior. Pike, 936 F.3d at 380.
Following this proof, the jury sentenced Pike to
death, finding two aggravating circumstances: (1) the
murder was especially heinous, atrocious or cruel in
that it involved torture or serious physical injury
beyond that necessary to produce death; and (2) the
murder was committed for the purpose of avoiding,
interfering with or preventing a lawful arrest or
prosecution of the defendant or another.1 Pike, 978
S.W.2d at 913 (citing Tenn. Code Ann. § 39-13204(i)(5), (6)). The Tennessee Supreme Court affirmed
Pike’s sentence on appeal. Id. at 917-18.
Pike next sought post-conviction relief in state
court. She asserted, inter alia, that trial counsel was
ineffective by failing to present mitigation evidence in
his possession and failing to discover and present
further relevant mitigation evidence. Pike, 2011 WL
1544207, at *49-50. She also argued that she was
ineligible for the death penalty under Roper v.
Simmons, 543 U.S. 551 (2005), and Atkins v. Virginia,
536 U.S. 304 (2002), because she was an immature,
mentally ill, brain-damaged eighteen-year-old at the
time of the offense. Id. at *62.
At the post-conviction hearing, Pike presented
testimony from numerous witnesses regarding her
traumatic childhood and adolescence. Id. at *10-29.
She also presented the testimony of two mental health
1

At sentencing, the State relied upon the evidence presented at
the guilt phase in support of the aggravating factors. Pike, 978
S.W.2d at 913.

11
experts who had diagnosed her with organic brain
damage, bipolar disorder, and post-traumatic stress
disorder (“PTSD”). Id. at *15-18, 39-40. After the
hearing, the trial court denied relief. Id. at *40.
The Tennessee Court of Criminal Appeals affirmed
the denial of post-conviction relief. Pike, 2011 WL
1544207, at *1. The court found that the trial court
properly determined that, to analyze a claim of
ineffective assistance based on the failure to present
mitigation evidence, the reviewing court must:
(1) analyze the nature and extent of the available
mitigation evidence not presented; (2) determine
whether the jury heard substantially similar evidence
during either the guilt or sentencing phase of trial; and
(3) consider whether there was such strong evidence of
the applicable aggravating factors that the mitigation
evidence would not have affected the jury’s
determination. Id. at *50 (citing Goad v. State, 938
S.W.2d 363, 371 (Tenn. 1996)).
The Court of Criminal Appeals agreed with the trial
court that none of these factors weighed in favor of a
finding of prejudice. Id. at *51-52. Regarding the
mitigation evidence not presented, the court concluded
that trial counsel made a reasonable strategic decision
not to call Dr. McCoy as a witness. Id. The court cited
to trial counsel’s testimony that he had never been
completely comfortable with Dr. McCoy’s mitigation
materials because they included evidence that he did
not want the jury to hear and that this discomfort,
along with Dr. McCoy’s announcement that she could
not corroborate Dr. Engum’s report, led him not to call
her as a witness. Id. at *52. The court further agreed

12
that much of Pike’s new mitigation evidence was
presented in some form to the jury and that the
evidence of the aggravating factors was so strong that
additional mitigation evidence would not have affected
the jury’s verdict. Id. The court ultimately concluded
that “[b]ased upon the clear finding by the [postconviction] trial court that the mitigation evidence
which was omitted would not have outweighed the
aggravating factors, [Pike] is essentially precluded
from establishing prejudice.” Id. at *52.
The court also concluded that trial counsel was not
ineffective by failing to discover and present evidence
of Pike’s brain damage, bipolar disorder, or to find
numerous lay witnesses who could have testified in her
defense. Id. at *52-54. The court agreed with the trial
court that trial counsel reasonably relied on the expert
opinion of Dr. Engum. Id. at *54. The court also
observed that Pike’s additional experts reached the
same essential conclusion as Dr. Engum: Pike had not
acted with premeditation. Id.
Finally, the Court of Criminal Appeals rejected
Pike’s claim that she was ineligible for the death
penalty. Id. at *62-68. The court concluded that Pike
had “failed to persuade this court that a new national
consensus exists to extend the holding of Roper to
persons over the age of [eighteen].” Id. at *67
(alteration in original). The court was unable “to
discern that there is a national consensus to show that
evolving standards of decency require a constitutional
ban . . . on executing persons who were between the
ages of eighteen and the early twentys at the time of
the offense.” Id. The court therefore declined “to

13
extend the holding of Roper to include such.” Id. The
Tennessee Supreme Court declined discretionary
review. See Pet. App. C.
B. Federal Court Proceedings
After her state-court proceedings ended, Pike filed
a petition for writ of habeas corpus in federal court.
Pike v. Freeman, No. 1:12-cv-35, 2016 WL 1050717
(E.D. Tenn. Mar. 11, 2016). She raised claims that
trial counsel was ineffective during the penalty phase
by failing to present mitigation evidence uncovered
during preparation for trial, failing to call mitigation
specialist Dr. McCoy as a witness, and failing to
discover compelling and relevant mitigation evidence.
Id. at *11, 12, 15. She also asserted that her death
sentence violated the Eighth Amendment because she
was an immature, mentally ill, and brain-damaged
eighteen-year-old at the time of the offense. Id. at *24.
The district court granted the Warden’s motion for
summary judgment and dismissed the habeas petition.
Id. at *10-16, 24-25, 29-30. The district court declined
to grant Pike a certificate of appealability (“COA”) on
any of her claims. Id. at *30.
The Sixth Circuit granted Pike a COA on her claim
that trial counsel was ineffective by failing to present
mitigation evidence through Dr. McCoy and by failing
to discover and present additional mitigation evidence.
See Resp. App. G. The court declined to grant Pike a
COA on her remaining claims, including her claim that
her sentence violated the Eighth Amendment. Id.

14
The Sixth Circuit affirmed the denial of habeas
relief. Pike, 936 F.3d at 375. The court’s analysis
focused solely on the prejudice prong of Strickland. Id.
at 379. The court observed that “‘the failure to present
additional mitigating evidence that is ‘merely
cumulative’ of that already presented does not rise to
the level of a constitutional violation.’” Id. (quoting
Broom v. Mitchell, 441 F.3d 392, 410 (6th Cir. 2006)).
The court explained that “[t]he new evidence that a
habeas petitioner presents must differ in a substantial
way—in strength and subject matter—from the
evidence actually presented at sentencing.”
Id.
(Quotation and citations omitted).
The court found that Pike’s ineffective-assistance
claim presented two separate issues: (1) whether trial
counsel was ineffective by failing to present the
testimony of mitigation expert Dr. McCoy at her
sentencing hearing; and (2) whether counsel was
ineffective by failing to discover and present additional
compelling mitigation evidence. Id. Turning first to
Dr. McCoy, the court observed that her social history of
Pike “laid out an upbringing of substantial difficulty
and strife.” Id. at 380. The court explained that “the
jury already got much of the social history’s general
content during the penalty phase of the trial,” citing to
the testimony of Pike’s mother, father, and aunt. Id. at
380-81. The court opined: “All in all, the jury heard a
clear story: Pike’s childhood and upbringing were very
difficult and, in some ways, explained how she became
a person capable of such a brutal murder.” Id. at 381.
The court concluded that “because the jury heard
largely the same narrative as Pike now presents, the
Tennessee Court of Criminal Appeals’ conclusion that

15
Pike failed to establish prejudice from [trial counsel’s]
decision not to call Dr. McCoy at the penalty-phase
hearing . . . was not an unreasonable application of
federal law under” the Antiterrorism and Effective
Death Penalty Act of 1996 (“AEDPA”).
The court next turned to Pike’s claim regarding the
failure to discover and present additional mitigation
evidence of Pike’s diagnoses of bipolar disorder, organic
brain damage, and PTSD—along with additional
evidence of her traumatic childhood. Id. at 381-82.
The court noted that, through Dr. Engum’s testimony,
“the jury was already well aware” of the expert opinion
that Pike’s “moral reasoning and impulse control were
not present during the murder” of the victim. Id. at
382. The court doubted “that the substitution of
bipolar disorder, PTSD, and organic brain damage for
borderline personality disorder would have affected the
jury’s deliberations on this point.” Id. (Citation
omitted). The court further stated that Pike had failed
to show that the new evidence from additional lay
witnesses “would have been significantly different in
strength or subject matter from the testimony of Pike’s
mother, father, and aunt.” Id. (Citation omitted). The
court concluded that “[i]n sum, none of the evidence
Pike now points to substantially differs from the
mitigation case that was presented to the jury.” Id.
The court explained that its conclusion was
“bolstered by the aggravating evidence before the jury.”
Id. at 382-83. The brutal nature of the murder met the
definition of especially heinous, atrocious or cruel in
that it involved torture or serious physical abuse
beyond that necessary to produce death. Id. (citing

16
Tenn. Code Ann. § 39-13-204(i)(5)). The court noted
that Pike’s confession that she heard voices telling her
that she had to do something to prevent the victim
from telling on her and sending her to prison, which
Pike did not refute, showed that the murder was
committed for the purpose of avoiding, interfering with,
or preventing a lawful prosecution of the defendant or
another. Id. at 383 n.1 (citing Tenn. Code Ann. 39-13204(i)(6)). “The prejudice prong is satisfied if ‘there is
a reasonable probability that at least one juror would
have struck a different balance.” Id. at 383. The court
explained that “a fairminded jurist could conclude that
there is no such probability here, where Pike’s desired
evidence was mostly cumulative and insufficient to
overcome the heinous nature of her crime.” Id. The
court determined that even if the jury heard all of the
mitigation evidence “Pike now wishes had been
presented, a fairminded jurist could conclude that the
sheer weight and degree of aggravation evidence before
the jury outweighs the mitigation evidence raised on
appeal.” Id. The court therefore held that “the state
court’s conclusion that Pike could not establish
Strickland prejudice . . . was not an unreasonable
application of federal law.” Id.
Concurring in the judgment but writing
separately—and addressing an issue neither briefed by
the parties nor included in the COA—Judge Stranch
opined that “society’s evolving standards of decency
likely do not permit the execution of individuals who
were under 21 at the time of their offense.” Id. at 385.
However, Judge Stranch acknowledged that AEDPA
allowed relief only if the state court’s decision was
(1) contrary to or unreasonably applied Supreme Court

17
precedent, or (2) resulted in a decision that was based
on an unreasonable determination of the facts. Id.
(quoting 28 U.S.C. § 2254(d)). Since this Court has not
extended Roper to eighteen-year-olds, Judge Stranch
agreed that the state court did not unreasonably apply
Strickland’s prejudice prong. Id.
REASONS FOR DENYING THE WRIT
This Court should deny the writ because, despite
Pike’s argument to the contrary, there is no circuit split
to resolve regarding the application of Strickland’s
prejudice prong to mitigation evidence not presented at
sentencing. The Sixth Circuit properly analyzed Pike’s
claim and correctly concluded that the Tennessee Court
of Criminal Appeals reasonably rejected the claim.
Pike is not entitled to relief on her Roper claim because
this Court has not extended Roper to defendants who
were eighteen years old at the time of the offense.
I.

Pike Attempts to Manufacture a Circuit
Split Where None Exists.

Pike asserts that there is a “circuit conflict on when
evidence is cumulative for purposes of a prejudice
analysis” under Strickland v. Washington, 466 U.S. 668
(1984).
Pet. 25.
She claims that the Sixth
Circuit—along with the Fifth, Eighth, and Eleventh
Circuits—applies a rule that omitted mitigation
evidence is per se cumulative if it concerns the same
subject matter as the proof presented at sentencing,
regardless of the quality of the omitted evidence. Pet.
19, 20-22. She says that this analysis conflicts with the
Third, Seventh, and Ninth Circuits, which take the
opposite approach and hold that omitted evidence is

18
not cumulative if it is of greater quality. Id. at 19, 2225. But this argument relies on a non-existent circuit
split and misstates the position of the Sixth Circuit.
Circuit courts do not disagree on how to analyze
Strickland prejudice when a petitioner faults trial
counsel for failing to present available mitigation
evidence. To establish prejudice, a “defendant must
show that there is a reasonable probability that, but for
counsel’s unprofessional errors, the result of the
proceeding would have been different. A reasonable
probability is a probability sufficient to undermine
confidence in the outcome.” Strickland, 466 U.S. at
694. A court analyzing the failure to present additional
mitigation evidence must “evaluate the totality of the
mitigation evidence—both that adduced at trial, and
the evidence adduced in the habeas proceeding in
reweighing it against the evidence in aggravation.”
Williams v. Taylor, 529 U.S. 362, 397-98 (2000). And
presenting additional mitigation evidence that is
“merely cumulative” of the proof presented at
sentencing weighs against a finding of prejudice. Wong
v. Belmontes, 558 U.S. 15, 22 (2009).
When conducting a prejudice analysis, the Fifth,
Eighth, and Eleventh Circuit cases Pike cites in her
petition each compared the newly presented mitigation
evidence against the evidence presented at sentencing.
After making this comparison, the courts determined
that the petitioner had failed to establish prejudice.
See, e.g., Busby v. Davis, 925 F.3d 699, 723-24 (5th Cir.
2019) (stating that the district court “carefully
considered all of the evidence presented at trial, both
mitigating and aggravating evidence” and “then

19
considered evidence that Busby says should have been
presented” and agreeing “with the conclusions that the
district court reached regarding the weight of the
aggravating evidence as measured against the ‘new’
mitigating evidence”); Anderson v. Kelley, 938 F.3d 949,
958 (8th Cir. 2019) (stating that, when analyzing
prejudice, the court “must consider the ‘totality of the
evidence before the . . . jury’” and proceeding to weigh
Anderson’s newly-presented evidence against the proof
he presented at sentencing) (quoting Strickland, 466
U.S. at 694); Tanzi v. Sec’y, Florida Dept. of Corr., 772
F.3d 644, 660 (11th Cir. 2014) (“We have compared the
mitigation evidence presented at the state
postconviction hearing to that presented during the
penalty phase.”); Holsey v. Warden, Georgia Diagnostic
Prison, 694 F.3d 1230, 1260 (11th Cir. 2012) (“To
determine whether the Georgia Supreme Court’s
‘largely cumulative’ determination was an
unreasonable one, we compare the trial evidence with
the evidence presented during the state postconviction
proceedings.”).
And this is precisely the same analysis applied by
the Third, Seventh, and Ninth Circuits in the cases
Pike cites as supposed evidence of a circuit split. Pet.
22-25. For example, in Abdul-Salaam v. Sec’y of Penn.
Dept. of Corr., 895 F.3d 254, 269 (3d Cir. 2018), the
Third Circuit explained that “[t]o determine whether
there is a reasonable probability that the
uninvestigated mitigation evidence would have
changed one juror’s mind, we must ‘evaluate the
totality of the mitigation evidence—both that adduced
at trial, and the evidence adduced in [a later
proceeding] in reweighing it against the evidence in

20
aggravation.’” (quoting Williams, 529 U.S. at 397-98).
In Pruitt v. Neal, 788 F.3d 248, 273 (7th Cir. 2015), and
Griffin v. Pierce, 622 F.3d 831, 844 (7th Cir. 2010), the
Seventh Circuit opined that courts assess Strickland
prejudice “by evaluating ‘the totality of the available
mitigation evidence-both that adduced at trial, and the
evidence adduced in the habeas proceeding’-and
reweighing it against the evidence in aggravation’”
(quoting Porter v. McCollum, 558 U.S. 30, 41 (2009)
(quoting Williams, 529 U.S. at 397-98))). And in Kayer
v. Ryan, 923 F.3d 692, 718-23 (9th Cir. 2019), the
Ninth Circuit concluded that Kayer had established
prejudice after comparing the omitted mitigation
evidence from the proof presented at sentencing.
Each of the cases that Pike cites in her petition turn
on differences in the facts of each case rather than a
dispute of law. The courts properly weighed the
omitted mitigation evidence against the proof of
mitigating and aggravating circumstances presented at
sentencing. The fact that courts reached different
conclusions on whether the petitioner had established
prejudice indicates merely that the omitted mitigation
evidence differed in amount and substance from the
proof presented at sentencing. It does not indicate that
the circuits are at all divided or split on how to analyze
prejudice.
Contrary to Pike’s assertion, the Sixth Circuit does
not have a rule—nor did it hold in Pike’s case—that
omitted mitigation evidence is per se cumulative and
cannot establish prejudice if it addresses the same
subject matter as the proof presented at sentencing.
After correctly identifying and citing the Strickland

21
prejudice standard, Pike, 936 F.3d at 379, the court
explained that, to meet this burden, “[t]he new
evidence that a habeas petitioner presents must differ
in a substantial way—in strength and subject
matter—from the evidence actually presented at
sentencing.” Id. (Emphasis added). To determine if
evidence differs in a substantial way, a court must
necessarily address the quality and quantity of the
evidence. Indeed, the Sixth Circuit has previously
“found prejudice because the new mitigating evidence
is ‘different from and much stronger than the evidence
presented on direct appeal,’ ‘much more extensive,
powerful, and corroborated, and ‘sufficiently different
and weighty.’” Foust v. Houk, 655 F.3d 524, 539 (6th
Cir. 2011) (quoting Goodwin v. Johnson, 632 F.3d 301,
328, 331 (6th Cir. 2011)). The Sixth Circuit has also
based its “assessment on ‘the volume and compelling
nature of th[e new] evidence.’” Foust, 655 F.3d at 539
(quoting Morales v. Mitchell, 507 F.3d 916, 935 (6th
Cir. 2007)).
In Pike’s case, the Sixth Circuit carefully considered
the new mitigation evidence she presented in her postconviction proceedings. Pike, 936 F.3d at 379-82. The
court observed that Dr. McCoy’s “‘social history’
document was certainly thorough, and we will assume
for the sake of argument that Dr. McCoy would have
been able to testify consistently with the evidence she
accumulated and compiled therein;” it cited to Dr.
Jonathan Pincus’s diagnoses of organic brain damage,
bipolar disorder, and PTSD; and it identified lay
witnesses Pike said should have testified. Id. at 380,
381, 382. When the court weighed this evidence
against the proof of mitigating and aggravating factors

22
introduced at sentencing, it concluded that Pike had
not established prejudice. Id. at 379-83. This analysis
is wholly consistent with Strickland and with other
circuits that have addressed Strickland prejudice in a
similar context. Since there is no split of authority for
this Court to resolve, this Court should deny the
petition for writ of certiorari.
II.

Pike Has Not Shown That Trial Counsel’s
Failure to Present Additional Mitigation
Evidence Caused Her Prejudice.

This Court should also deny certiorari because the
state court’s rejection of Pike’s claim of prejudice was
not unreasonable. Pike argues that the Sixth Circuit’s
decision is wrong because her newly presented
mitigation evidence was far more compelling than the
evidence presented at her sentencing hearing. Pet. 2628. She also asserts that the Sixth Circuit failed to
examine the reasoning of the relevant state court and
that the state court decision itself is incorrect. Id. at
29. Neither argument entitles her to relief.
The Tennessee Court of Criminal Appeals correctly
identified and applied Strickland to analyze Pike’s
claims. Pike, 2011 WL 1544207, at *44-45, 50-54. The
court weighed the omitted evidence against the proof
that was presented at sentencing and concluded that
the omitted evidence was substantially similar to the
proof presented at sentencing and that the evidence of
the aggravating factors was overwhelming. Id. The
court therefore determined that Pike had failed to
establish prejudice and was not entitled to relief. Id.

23
On habeas review, “[a] state court’s determination
that a claim lacks merit precludes federal habeas relief
so long as ‘fairminded jurists could disagree’ on the
correctness of the state court’s decision.” Harrington v.
Richter, 562 U.S. 86, 101 (2011) (quoting Yarborough v.
Alvarado, 541 U.S. 652, 664 (2004)). “If this standard
is difficult to meet, that is because it was meant to be.”
Id. at 102. And the burden of “[e]stablishing that a
state court’s application of Strickland was
unreasonable under § 2254(d) is all the more difficult”
because both standards are “highly deferential.”
Pike falls well short of meeting this burden. In
arguing that the state court’s decision was
unreasonable, Pike only makes general assertions that
the state court “‘mischaracterized at best the
appropriate rule’ under Strickland, ‘ignored or
overlooked’ important mitigation evidence, and
provided contradictory reasons for rejecting [her]
ineffective-assistance claim.” Pet. at 29-30 n.6 (quoting
Williams, 529 U.S. at 373 n.5, 397). She does not
identify any portion of the state court opinion that is
incorrect, nor does she provide any explanation as to
why the court erred. Since she wholly fails to engage
with the reasoning of the state court, she fails to show
that the state court’s decision was erroneous. Her
disagreements with the Sixth Circuit’s decision
similarly miss the mark.
The Sixth Circuit properly applied AEDPA
deference to review the state court decision and
concluded that Pike failed to establish prejudice.
Contrary to Pike’s assertion, the Sixth Circuit did not
apply an erroneous prejudice standard that led it to

24
discount Pike’s newly presented mitigation evidence.
Pet. 26-28. Instead, the court performed the same
prejudice analysis as the state court: it weighed the
omitted mitigation evidence against the proof of
mitigation and aggravating factors presented at
sentencing. Compare Pike, 936 F.3d at 379-83 with
Pike, 2011 WL 2011 1544207, at *51-52. After
conducting this analysis, the court concluded that
“[e]ven were the jury to hear everything that Pike now
wishes had been presented, a fairminded jurist could
conclude that the sheer weight and degree of
aggravation evidence before the jury outweighs the
mitigation evidence raised on appeal.” Pike, 936 F.3d
at 383.
Both the state court and the Sixth Circuit properly
analyzed Pike’s claims under Strickland. And the
Sixth Circuit correctly determined that the state court’s
rejection of the claim was not unreasonable under the
doubly deferential lens of Strickland and AEDPA. Pike
has failed to show that she is entitled to habeas relief
on her Strickland claim, and this Court should deny
her petition for writ of certiorari.
III.

This Court Should Decline to Review Pike’s
Claim That the Death Penalty Should Not
Be Imposed On a Defendant Who Was
Eighteen Years Old at the Time of the
Criminal Offense.

As an initial matter, this case is an improper vehicle
to address Pike’s second question presented because it
raises an issue that was not before the Sixth Circuit.
The Sixth Circuit denied Pike a COA on her claim that
the Eighth Amendment prohibits the execution of an

25
individual who was eighteen years old at the time of
the criminal offense. The parties did not brief the
claim, nor did the majority opinion consider the claim
on the merits. In fact, the issue did not arise until
Judge Stranch raised it sua sponte in a concurring
opinion. Since this claim was not ultimately one that
the Sixth Circuit considered, it should not provide the
basis for granting a writ of certiorari.
But even if the claim is properly presented, this
Court lacks jurisdiction to reach the merits of the
claim. Pike notes that this Court has jurisdiction over
the denial of a COA and indicates that because she
included the claim in her motion to expand the COA,
this Court has jurisdiction to hear it. Pet. 30 n.7 (citing
Ayestas v. Davis, 138 S. Ct. 1080, 1089 n.1 (2018)).
But, this Court’s jurisdiction extends only to the
consideration of whether a COA should issue on the
claim. “Unless a circuit justice or judge issues a
certificate of appealability, an appeal may not be taken
to the court of appeals from—the final order in a
habeas proceeding in which the detention complained
of arises out of processes issued by a State court.” 28
U.S.C. § 2253(c)(1)(A). The “plain terms” of § 2253(c)(1)
“establish that ‘until a COA has been issued federal
courts of appeals lack jurisdiction to rule on the merits
of appeals from habeas petitioners.’” Gonzalez v.
Thaler, 565 U.S. 134, 142 (2012) (quoting Miller-El v.
Cockrell, 537 U.S. 322, 336 (2003)). Since the Sixth
Circuit declined to issue Pike a COA on this claim, this
Court only has jurisdiction to consider whether the
denial of the COA was proper. And Pike cannot show
that a COA is warranted for this claim.

26
A COA may issue “only if the applicant has made a
substantial showing of the denial of a constitutional
right.” 28 U.S.C. § 2253(c)(2). To meet this burden, an
applicant must show “that reasonable jurists could
debate whether (or, for that matter, agree that) the
petition should have been resolved in a different
manner or that the issues presented ‘were adequate to
deserve encouragement to proceed further.’” Slack v.
McDaniel, 529 U.S. 473, 484 (2000) (quoting Barefoot
v. Estelle, 463 U.S. 880, 893 (2000)). Pike cannot make
this showing because reasonable jurists would not
debate whether the district court erred in rejecting
Pike’s claim.
Federal habeas relief is available only if the statecourt decision “was contrary to, or involved an
unreasonable application of, clearly established federal
law, as determined by the Supreme Court of the United
States[.]” 28 U.S.C. § 2254(d)(1). Only the decisions of
this Court, and not lower courts, constitute “clearly
established federal law.” Lopez v. Smith, 135 S. Ct. 1,
4 (2014); Parker v. Matthews, 567 U.S. 37, 48-49 (2012).
And “clearly established federal law” includes only
Supreme Court precedent at the time the state court
adjudicated the issue. Greene v. Fisher, 565 U.S. 34, 38
(2011).
In Roper v. Simmons, 543 U.S. 551, 578 (2005), this
Court held that imposing a death sentence on an
offender who was under the age of eighteen at the time
of the offense violated the Eighth Amendment. This
Court recognized that “[d]rawing the line at 18 years of
age is subject, of course, to the objections always raised
against categorical rules.” Id. at 574. However, this

27
Court explained that “[t]he age of 18 is the point where
society draws the line for many purposes between
childhood and adulthood” and concluded that 18 is “the
age at which the line for death eligibility ought to rest.”
Id.
The Tennessee Court of Criminal Appeals engaged
in an extensive examination of Roper when addressing
Pike’s claim and concluded that there was not a
national consensus to extend Roper to offenders over
the age of eighteen or to show that evolving standards
of decency required a categorical ban on the execution
of individuals between the ages of eighteen and the
early twenties at the time of the offense. Pike, 2011
WL 1544207, at *62-67. In arguing for the expansion
of Roper, Pike now cites to research in neuroscience
and developmental psychology and states that the
number of eighteen-to-twenty-year-olds receiving the
death penalty has declined since Roper. Pet. 31-33.
But this falls well short of constituting a “national
consensus” and “evolving standards of decency” that
were critical to this Court’s holding in Roper. Indeed,
Pike cannot point to a single State that has eliminated
the death penalty for a defendant who is between the
ages of eighteen and twenty-one at the time of the
crime. Cf. Roper, 543 U.S. at 568 (“A majority of States
have rejected the imposition of the death penalty on
juvenile offenders under 18, and we now hold this is
required by the Eighth Amendment.”); Atkins v.
Virginia, 536 U.S. 304, 315-16 (2002) (observing that
“the large number of States prohibiting the execution
of mentally retarded persons” demonstrated the
“national consensus” against executing such offenders).

28
Since this Court has never held that Roper applies
to offenders who were eighteen years of age or older at
the time of the offense, Pike has not shown that the
state court’s denial of her claim was an unreasonable
application of Roper. She therefore has not shown that
reasonable jurists could disagree with the district
court’s rejection of her claim. Accordingly, she has not
carried her burden of demonstrating that she is
entitled to a COA on this claim, and this Court should
deny her petition for writ of certiorari.
CONCLUSION
This Court should deny the petition for writ of
certiorari.
Respectfully submitted,
HERBERT H. SLATERY III
Attorney General and Reporter
State of Tennessee
ANDRÉE SOPHIA BLUMSTEIN
Solicitor General
RICHARD D. DOUGLAS
Assistant Attorney General
Counsel of Record
301 6th Avenue North
P.O. Box 20207
Nashville, Tennessee 37202-0207
(615) 741-4125
davey.douglas@ag.tn.gov
Counsel for Respondent

